 DOE/IG-0471




INSPECTION                           SUMMARY REPORT ON
  REPORT                          INSPECTION OF ALLEGATIONS
                                       RELATING TO THE
                               ALBUQUERQUE OPERATIONS OFFICE
                                   SECURITY SURVEY PROCESS
                                AND THE SECURITY OPERATIONS’
                                     SELF-ASSESSMENTS AT
                              LOS ALAMOS NATIONAL LABORATORY




                                         MAY 2000




 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
    OFFICE OF INSPECTIONS
                                 Department of Energy
                                     Washington, DC 20585

                                         May 30, 2000


MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman (signed)
                         Inspector General

SUBJECT:                 INFORMATION: Summary Report on “Inspection of Allegations
                         Relating to the Albuquerque Operations Office Security Survey Process
                         and the Security Operations’ Self-Assessments at Los Alamos National
                         Laboratory”

BACKGROUND

The Office of Inspector General received allegations regarding the conduct of security reviews at
the Department of Energy’s (DOE) Los Alamos National Laboratory (LANL).
Specifically, it was alleged that DOE Albuquerque Operations Office (Albuquerque) management
changed the ratings of annual Security Surveys of LANL security operations after members of the
Albuquerque Security Survey team completed the survey. It was also alleged that LANL Security
Operations Division personnel were pressured by their managers to change or mitigate findings in
LANL Self-Assessment reports.

RESULTS OF INSPECTION

Regarding the Albuquerque Security Surveys of LANL Security Operations, we found that:

•   Albuquerque management changed ratings for the 1998 and 1999 surveys without providing a
    documented rationale for the changes;

•   Albuquerque management did not fully address concerns about a compromise of force-on-
    force exercise during the 1998 Albuquerque Security Survey at LANL; and

•   The 1997 and some 1998 Albuquerque Security Survey work papers were destroyed contrary
    to Albuquerque policy on the destruction of records. As a result, there was no complete record
    to show how ratings were developed by the survey teams.

Regarding the LANL Security Operations’ Self-Assessments reports, we found that:

•   Approximately 30 percent of the LANL Security Operations Division personnel interviewed,
    who had been involved in the conduct of self-assessments, believed they had been pressured to
    change or “mitigate” security self-assessments;
                                                  2


•     Some security self-assessments required by LANL procedures were not being conducted; and

•     DOE’s Los Alamos Area Office security staff was not performing all of the oversight
      responsibilities associated with the LANL Security Operations Division programs.

We concluded that the processes used to develop the Albuquerque security surveys of the LANL
security operations and the LANL self-assessments were inadequate. As a result, there are
legitimate concerns that the overall security condition at LANL, specifically for Fiscal Years 1998
and 1999, was not being accurately reported.

We provided management with a number of recommendations that, if implemented, would
improve the effectiveness of Albuquerque security surveys and LANL self-assessments.

MANAGEMENT REACTION

Albuquerque management stated that the facts presented and the conclusions reached were
accurate, and that the recommendations were appropriate. Albuquerque management stated that
they would take corrective action.

Due to the concerns identified during our inspection, we recommended that the Department review
these operations at other facilities. Specifically, we requested that the Director, Office of Security
and Emergency Operations evaluate self-assessment programs at other DOE facilities to determine
if they have been fully implemented and adequately represent security conditions. The Director
agreed to this recommendation.


Attachment

cc:    Deputy Secretary
       Under Secretary
       Acting Under Secretary for Nuclear Security/Administrator for Nuclear Security
       Director, Office of Security and Emergency Operations
       Manager, Albuquerque Operations Office
SUMMARY REPORT ON INSPECTION OF ALLEGATIONS RELATING
TO THE ALBUQUERQUE OPERATIONS OFFICE SECURITY SURVEY
PROCESS AND THE SECURITY OPERATIONS’ SELF-ASSESSMENTS
AT LOS ALAMOS NATIONAL LABORATORY




TABLE OF
CONTENTS

                Overview

                Introduction and Objectives ……………………………..       1

                Observations and Conclusions …………………………         1

                Details of Findings

                Changes to Security Survey Ratings …………………..    2

                Management Rationale for Rating Changes ………….   3

                Compromise of Force-on-Force Exercise ……………..   3

                Destruction of Records ………………………………….           4

                LANL Self-Assessments ………………………………...           4

                Los Alamos Area Office Oversight ……………………..     6

                Recommendations ……………………………………….                7

                Management Reaction and Inspector Comments ……   8


                Appendices

                A. Scope and Methodology …………………………….           9

                B. DOE Survey Requirements …………………………           10

                C. 1998 Security Survey Rating Changes ……………    12

                D. 1999 Security Survey Rating Changes ……………    13
Overview
Introduction       The Office of the Inspector General received information from two
and Objectives     complainants relating to security reviews at the Department of
                   Energy’s (DOE) Los Alamos National Laboratory (LANL).
                   LANL is operated by the University of California under contract
                   with DOE. One complainant alleged that managers of DOE’s
                   Albuquerque Operations Office (Albuquerque) Safeguards and
                   Security Division, changed the ratings of periodic (annual)
                   Security Surveys of LANL security operations after members of
                   the Albuquerque Security Survey team completed the survey.
                   Specifically, it was alleged that the Security Division managers
                   upgraded survey ratings that were “Marginal” or “Unsatisfactory”
                   as a result of “deals struck” between Albuquerque and LANL
                   management officials. The second complainant alleged that LANL
                   Security Operations Division personnel were pressured by their
                   managers to change or mitigate self-assessment findings in LANL
                   Self-Assessment reports. Both complainants alleged that the
                   Albuquerque Security Survey reports at LANL and the LANL
                   Self-Assessment reports did not clearly reflect the overall security
                   conditions found by the survey field reviewers.

                   The objectives of our inspection were to determine: 1) if
                   Albuquerque Security managers changed Albuquerque Security
                   Survey ratings of LANL Security Operations; 2) if there was a
                   basis for these changes; and, 3) if LANL Security Operations
                   Division management had pressured its staff to alter self-
                   assessment reports. This inspection did not include an evaluation
                   of the overall security conditions at LANL.

                   During the course of this inspection, a number of individuals
                   requested confidentiality. They indicated they feared retaliation
                   for disclosing information to the Office of Inspector General
                   (OIG).

Observations and   We concluded that the processes used to develop the Albuquerque
Conclusions        Security Surveys of the LANL Security Operations and the LANL
                   Self-Assessments have raised legitimate concerns that the overall
                   security condition at LANL was not being accurately reported.




Page 1                 Summary Report on Inspection of Allegations Relating to
                       the Albuquerque Operations Office Security Survey
                       Process and the Security Operations’ Self-Assessments
                       at Los Alamos National Laboratory
Details of Findings
Details of Findings                 In order to ensure compliance with DOE requirements, 1 the
                                    Albuquerque Safeguards and Security Division conducts annual
                                    security surveys of LANL Security Operations. The topical areas
                                    evaluated during these surveys include: Program Management,
                                    Protection Program Operations, Information Security, Nuclear
                                    Materials Control and Accountability, and Personnel Security.
                                    Each topical area also has several sub-topical areas. The
                                    Albuquerque Operations Office assigns ratings of “unsatisfactory,”
                                    “marginal,” or “satisfactory” based on conditions existing at the
                                    end of survey activities. A complete listing of the topical and sub-
                                    topical areas is provided at Appendix C.

Changes to Security                 Our inspection found that Albuquerque management changed
Survey Ratings                      ratings for the 1998 and 1999 Albuquerque Security Surveys of
                                    LANL Security Operations after the Survey Teams had assigned
                                    them. During the 1998 Albuquerque Security Survey at LANL,
                                    Albuquerque management upgraded several topic area survey
                                    ratings, and most importantly, the overall composite rating. 2 The
                                    OIG was told that had Albuquerque management not upgraded the
                                    topical and sub-topical ratings in the Nuclear Materials Control
                                    and Accountability topical area, and had management allowed the
                                    inclusion of a compromised force-on-force exercise, the overall
                                    composite LANL Security Survey rating would have been
                                    “Unsatisfactory.”3

                                    During the 1999 Albuquerque Security Survey at LANL, the
                                    overall composite rating was downgraded from “Satisfactory” to
                                    “Marginal” as were two sub-topical ratings and one topical rating. 4
                                    The Survey Team initially rated LANL as “Satisfactory” based on
                                    the results of the 1999 Albuquerque Security Survey at LANL.
                                    However, during a final review, Albuquerque management
                                    determined that because the “23rd Annual Report to the President
                                    on the Status of Safeguards and Security at Domestic Nuclear
                                    Weapons Facilities,” dated Jan 1997/Dec 1998, contained an issue
                                    concerning storage of classified parts, a “Satisfactory” rating


1
  The DOE requirements are specifically addressed at Appendix B.
2
  The 1998 rating changes are detailed at Appendix C. It should be noted that three of the seven ratings upgraded by
Albuquerque management were the same as those ratings initially recommended by the Team Lead but subsequently
downgraded by the “murder board.”
3
  According to DOE Order 470.1, when a Survey has a composite rating of “Unsatisfactory” and the rating indicates
a significant vulnerability, the Operations Office Manager shall coordinate with the cognizant Program Secretarial
Officer within 24 hours to: 1) take action to shutdown/suspend operations of the facility or activity, pending
remedial action, or 2) apprise the cognizant Secretarial Officer and the Office of Safeguards and Security of the
rationale for continuing this critical operation and identify immediate interim corrective actions being undertaken to
mitigate identified risks or vulnerabilities.
4
  The 1999 rating changes are detailed at Appendix D. Team Lead ratings were not found for the 1999 survey.


Page 2                                                                                   Details of Findings
                                   would be the wrong message to send to the contractor. Therefore,
                                   the composite rating was downgraded from “Satisfactory” to
                                   “Marginal.” Albuquerque management said that the composite
                                   ratings needed to closely reflect the results of other DOE reviews
                                   that had recently been conducted at LANL.

Management                         Although we found no evidence to support allegations of collusion
Rationale for                      or “deal making” between Albuquerque and LANL regarding the
Rating Changes                     changes to the survey ratings, we did find that the survey reports
                                   did not contain any record of the rationale used by Albuquerque
                                   management for changing survey ratings. Albuquerque managers
                                   said that although Security Specialists conduct the surveys and
                                   propose recommended ratings for the sub-topic and topic areas,
                                   Albuquerque managers reserve “the right to take a look at what the
                                   survey team has developed” and decide what “message” should be
                                   sent to the contractor. Albuquerque management said that the
                                   rating process was “subjective” and that ratings remain “fluid”
                                   until a final report is issued. Contrary to the process identified in
                                   the Albuquerque Security Survey Procedural Guide, the
                                   Albuquerque managers said that they view it as a mistake to have
                                   the Security Specialists assign ratings because they do not have the
                                   overall LANL security program perspective prior to assigning final
                                   ratings and issuing the final security survey report. Further, in
                                   pursuing this matter, we found no other source which could
                                   provide the documented basis to support the Albuquerque
                                   management position concerning rating assignments or changes.

1999 Albuquerque                   The Albuquerque security survey team that conducted the 1999
Survey Team                        Security Survey at LANL was composed of some inspectors and
                                   support service personnel who had never been assigned to a survey
                                   team previously and several who had not attended survey team
                                   training. Albuquerque management said that the 1999 Survey
                                   Team was short on staff because they had difficulty hiring
                                   qualified people to fill positions that had been vacated by
                                   retirements and other turnover. Two survey team members and
                                   two previous Survey Team Leads said they had questioned
                                   Albuquerque management about the appropriateness of the 1999
                                   survey team’s experience and the sufficiency of the number of
                                   inspectors staffed to conduct the 1999 survey.

Compromise of                      The OIG also found that Albuquerque management did not fully
Force-on-Force                     assess concerns about a compromise of a force-on-force exercise
Exercise5                          during the 1998 Albuquerque Security Survey at LANL. The OIG


5
 A force-on-force exercise is conducted as a performance evaluation to assess the capability of the safeguards and
security system to meet performance objectives in response to an outside group referred to as an Adversary Force.


Page 3                                                                                   Details of Findings
                                     found that Albuquerque management refused to allow the survey
                                     team to include a finding concerning a compromise of a force-on-
                                     force exercise in the survey report, and did so without adequately
                                     investigating the alleged compromise. A Security Force-on-Force
                                     Exercise Specialist told us there were major concerns raised
                                     regarding the Guard Force response, that the exercise had not gone
                                     well, and that the concerns had been appropriately raised to
                                     Albuquerque management. Albuquerque management said they
                                     had been made aware of the concerns, however, there was no
                                     evidence of “cheating” and that “the losers always complain that
                                     the winner cheated.” A Security Specialist said that, had the
                                     compromise of the force-on-force exercise been included in the
                                     1998 Albuquerque Security Survey report, the composite rating
                                     would have been “unsatisfactory.” Instead, LANL was given a
                                     “marginal” rating.

Destruction of                       During our inspection we noted that the 1997 and some 1998
Records                              Albuquerque Security Survey work papers were destroyed
                                     contrary to Albuquerque’s policy on the destruction of records.
                                     The OIG also noted that some 1998 and 1999 work papers were
                                     either missing, not organized, or did not contain adequate
                                     summarization to support the ratings in the survey reports. As a
                                     result, there was no complete record to show how the survey teams
                                     developed the ratings.

LANL                                 Since the inception of the LANL security self-assessment process6
Self-Assessments                     in 1996, LANL has had a history of not meeting all of its
                                     established self-assessment requirements. Specifically, the LANL
                                     Fiscal Years 1997 and 1998 Tier III Self-Assessment End-of-Year
                                     Reports indicate that some required Tier I and II self-assessments
                                     were not completed and that the process was not consistently
                                     implemented. 7 During our inspection, LANL officials confirmed
                                     weaknesses in the Tier I and Tier II self-assessment processes.
                                     The OIG found that in one LANL division, Tier I reviews were not
                                     being completed because the Tier I security responsibilities were
                                     assigned on a part-time basis and other responsibilities held a
                                     higher priority. In another LANL division, the OIG found that
                                     there had been no Tier II self-assessments completed since March
                                     1998 because staffing was not adequate given other priority work.




6
    The LANL self-assessment process is described at Appendix B.
7
    At the time of our report, the LANL FY-99 Tier III Self-Assessment End-of-Year Report had not been issued.


Page 4                                                                                  Details of Findings
                                   In addition to finding that some self-assessments were not
                                   conducted, the OIG also found an instance where a self-assessment
                                   report was written without a self-assessment review being
                                   conducted. The OIG was provided a copy of a Tier II Self-
                                   Assessment Report that was generated in 1999 to support a Tier II
                                   review that was never performed. The OIG was told that this
                                   report, prepared at the direction of a LANL manager, was provided
                                   to an Albuquerque Security Survey Team to represent a completed
                                   Tier II review. The LANL manager who was identified as
                                   directing the preparation of the report denied having knowledge of
                                   any such report being prepared.

Pressure to Change                 Regarding LANL Self-Assessments, the OIG found that 8
Or Mitigate Issues                 of the 28 LANL Security Operations Division personnel
                                   interviewed (approximately 30 percent) who had conducted self-
                                   assessments believed they had been pressured to change or
                                   “mitigate” security self-assessments. Several of these individuals
                                   said LANL management appeared to be more concerned about
                                   making LANL and the Security Operations Division “look good”
                                   than reporting the actual security condition at LANL. The OIG
                                   was informed of two instances where LANL management became
                                   so upset with issues 8 raised by the initially assigned reviewers, that
                                   management reassigned other reviewers who subsequently
                                   determined that there were no issues to be raised and that the
                                   organizations were satisfactory.

                                   In addition, the OIG was provided information which showed that
                                   LANL management downgraded 40 issues and four concerns
                                   initially identified in a self-assessment draft report to six concerns
                                   and six observations which appeared in the final report. When
                                   interviewed, a LANL manager said that the reviewer had raised
                                   some issues that could not be validated, other issues that were
                                   unsupportable, and that there appeared to be a personality conflict
                                   between the reviewer and the organization being reviewed. 9

                                   A senior LANL manager indicated that, given the number of self-
                                   assessment findings identified since 1995, there was no concerted
                                   effort to avoid or mitigate findings.




8
  LANL has developed their own definition for issues, concerns and observations. Issues are deficiencies discovered
during an internal self-assessment that require a corrective action plan. Concerns and observations are suggestions
that may require improvement and may be mentioned in the text of a report, but they do not require a corrective
action plan.
9
  It should be noted that the reviewer had conducted self-assessments in the same organization for three years prior
to this review and had no difficulties in reporting issues developed during the prior self-assessments.


Page 5                                                                                   Details of Findings
Los Alamos Area      The OIG determined that DOE’s Los Alamos Area Office
Office Oversight     (LAAO) security staff was not performing all of the oversight
                     responsibilities associated with the LANL Security Operations
                     Division programs. Several DOE personnel told us that LAAO
                     security was understaffed and did not have the technical expertise
                     required to conduct all their oversight responsibilities. An
                     Albuquerque manager confirmed that LAAO is understaffed and
                     that the present staff has not had the necessary training to conduct
                     the tasks required by their assignments. The manager told us there
                     has been a reduction in full time equivalent positions at LAAO,
                     and Albuquerque has not been able to replace staff that retire or
                     leave for other positions. The Albuquerque manager said the two
                     staff members that remain at LAAO’s Office of Security have the
                     responsibility for oversight but they do not have the technical
                     expertise in all areas for which they are responsible. As a result,
                     the manager said Albuquerque has taken responsibility for the
                     security areas for which the LAAO staff does not have the
                     technical expertise. It should be noted that our review did not
                     independently evaluate the staffing levels and experience of the
                     LAAO staff.

Energy’s Office of   The Department of Energy’s Office of Independent Oversight
Independent          and Performance Assurance reviewed LANL security operations
Oversight and        during 1999 and issued a report on August 27, 1999, titled,
Performance          “Independent Safeguards and Security Inspection of Los Alamos
Assurance            National Laboratory.” The OIG is providing our findings to the
                     Office of Independent Oversight and Performance Assurance for
                     its consideration.




Page 6                                                            Details of Findings
Recommendations
Recommendations   We recommend that the Manager, Albuquerque Operations Office:

                  1. Ensure that the supporting rationale for changing survey ratings
                     after they have been assigned by the Survey Team is
                     documented, and that the justification and the rationale for the
                     factors responsible for the composite facility rating are
                     included in the survey report.

                  2. Ensure that Security Survey Team Personnel possess the
                     requisite expertise and skill necessary to perform the survey
                     and that team members have sufficient experience in the
                     topical areas being reviewed.

                  3. Update the Albuquerque Security Survey Procedural Guide to
                     comply with the Albuquerque Records Information Destruction
                     Schedule with regard to the destruction of all survey and
                     inspection files.

                  4. Ensure that LANL’s self-assessment program is fully
                     implemented at all three-tier levels.

                  5. Review and assess staffing levels for security personnel at the
                     Los Alamos Area Office, and ensure that the Area Office has
                     adequate staff with the necessary technical expertise to carry
                     out its security oversight responsibilities.

                  The OIG recommends the Director, Office of Security and
                  Emergency Operations:

                  6. Evaluate self-assessment programs at other facilities to
                     determine if these programs have been fully implemented and
                     adequately represent the actual security conditions at the
                     facilities.




Page 7                                                         Recommendations
Management Reaction and Inspector Comments
Management Reaction   In their response to the draft report, Albuquerque management
                      stated that the facts presented and the conclusions reached were
                      accurate, and that the recommendations were appropriate.
                      Albuquerque management stated that they would take corrective
                      action.

                      The Director, Office of Security and Emergency Operations agreed
                      to evaluate self-assessment programs at DOE facilities, given the
                      concerns identified during the inspection.


Inspector Comments    The actions planned and taken by the DOE Office of Security and
                      Emergency Operations and the Albuquerque Operations Office
                      were responsive to the recommendations.




Page 8                                Management Reaction/Inspector Comments
Appendix A
Scope and     The OIG conducted this inspection at Los Alamos National
Methodology   Laboratory (LANL), Los Alamos Area Office (LAAO), and the
              Albuquerque Operations Office (Albuquerque) from April through
              November 1999. To accomplish our review objectives, the OIG:

                 •   Reviewed DOE O 470.1, “Safeguards and Security
                     Program,” and DOE O 471.2A, “Information Security
                     Program;”
                 •   Reviewed the Albuquerque Security Survey Procedural
                     Guide;
                 •   Interviewed Albuquerque, LAAO, and LANL personnel;
                 •   Reviewed documentation relating to security surveys and
                     self-assessments;
                 •   Reviewed the Albuquerque Management Review Division
                     report titled “Manipulation of Security Survey Results”
                     dated July 9, 1999;
                 •   Reviewed the House Select Committee Report referred to
                     as the “Cox Report” dated January 1999; and the
                     President’s Foreign Intelligence Advisory Board’s report
                     dated June 1999;
                 •   Reviewed self-assessment reports issued by the LANL
                     Security Operations Division and Security Survey reports
                     issued by the Albuquerque Operations Office; and
                 •   Reviewed the Office of Independent Oversight and
                     Performance Assurance’s Independent Safeguards and
                     Security Inspection of LANL dated August 27, 1999.

              This inspection involved a review of the Albuquerque Security
              Surveys of LANL Security Operations and LANL’s Self-
              Assessment Program for Fiscal Years 1997, 1998, and 1999.

              This inspection was conducted in accordance with “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 9                                              Scope and Methodology
Appendix B
DOE Survey                         The Department has mandated a “Safeguards and Security
Requirements                       Program” through the issuance of DOE Order 470.1,
                                   SAFEGUARDS AND SECURITY PROGRAM. The purpose of
                                   this order is to ensure appropriate levels of security protection
                                   consistent with DOE standards to prevent unacceptable, adverse
                                   impacts to national security.

                                   DOE Order 470.1 establishes that the responsible Operations
                                   Office assign ratings of “unsatisfactory,” “marginal,” or
                                   “satisfactory” based on conditions existing at the end of survey
                                   activities; and that survey reports include a justification and
                                   rationale for the overall composite facility rating. The order
                                   specifically states that these ratings are not to be based upon future
                                   or planned corrective actions. Additionally, the order establishes
                                   that the survey team personnel who conduct the Security Surveys
                                   are to possess qualifications, experience, and training (basic survey
                                   and team leader training) sufficient to accomplish effective and
                                   thorough surveys.

Albuquerque Security               To assist in Albuquerque security survey reviews, the Albuquerque
Survey Requirements                Safeguards and Security Division developed a Security Survey
                                   Procedural Guide dated May 22, 1997, which identifies the
                                   responsibilities of the Survey Team Lead, the Assistant Survey
                                   Team Lead, and the survey team members during each phase of the
                                   survey. This Guide outlines the survey team process. Specifically,
                                   the guide states that the DOE Team Lead is to conduct a “murder
                                   board” during which Topic Team Leads 10 support rating
                                   rationale/justification and assign final ratings. Survey team
                                   members also provide comments and clarifications for ratings
                                   assigned. The finalized information is then given to the report
                                   coordinator for inclusion in the survey report.

Self-Assessment                    DOE Order 470.1, Chapter X, SELF-ASSESSMENT PROGRAM,
Requirements                       establishes the requirement for self-assessment programs at
                                   contractor facilities. It requires that self-assessment programs be
                                   conducted and documented for all cleared facilities and that the
                                   self-assessments be performed between the security surveys, which
                                   are conducted by the responsible Operations Office.

                                   The LANL Safeguards and Security Self-Assessment Program is
                                   also mandated by the terms of the Department’s contract with the
                                   University of California, contract modification No. W-7405-ENG-
                                   36. This contact modification requires that “… the University will
                                   conduct an ongoing self-assessment process including self-

10
  A “Topic Team Lead” is the individual assigned to head the team that reviews one of the five topic areas as
identified in Appendix C.


Page 10
Appendix B
             assessments performed at the Laboratory as the principal means by
             which to evaluate compliance with the performance measures …
             against which [the] University’s overall performance of obligations
             under the contract will be determined.”

             The University of California, in compliance with contract
             requirements, has implemented a self-assessment program that is
             defined in a LANL Safeguards and Security Assurance Manual
             dated June 1996. This manual establishes a three tiered self-
             assessment process with a primary objective of ensuring the
             effective and efficient implementation of the LANL Safeguards
             and Security program.

             The formalized safeguards and security self-assessment program
             includes a plan for each applicable topical and sub-topical area.
             The self-assessment process consists of a three-tier process. At
             Tier I, each LANL Division is required to conduct a self-
             assessment within the division. This is accomplished by the
             organizational safeguards and security officer, utilizing a checklist
             format, covering areas such as computer security, information
             security, property protection, and Nuclear Material Control and
             Accountability. At Tier II, each section within the LANL Security
             Division is required to conduct a self-assessment in their functional
             area(s). At Tier III, a LANL self-assessment is conducted by a
             team of Subject Matter Experts (SMEs) under the direction of
             LANL Security Division Program Integration Group.




Page 11
Appendix C
                                           1998 Security Survey Rating Changes11
Program Topic Areas:                                                Team Leader      Murder board      Final Report
Program Management
     Program Management and Administration                         Unsatisfactory     Unsatisfactory     Marginal
     Program Planning                                               Satisfactory       Satisfactory     Satisfactory
     Personnel Development and Training                              Satisfactory      Satisfactory     Satisfactory
     Facility Approval and Registration of Activities                Satisfactory      Satisfactory     Satisfactory
     Foreign Ownership, Control, or Influence                        Satisfactory      Satisfactory     Satisfactory
     Safeguards and Security Plans                                  Unsatisfactory    Unsatisfactory   Unsatisfactory
     Surveys and Self Assessment                                     Satisfactory      Satisfactory     Satisfactory
     Resolution of Findings                                         Satisfactory        Marginal       Satisfactory
     Incident Reporting and Management                              Satisfactory       Satisfactory    Satisfactory
                                                OVERALL RATING     Unsatisfactory     Unsatisfactory     Marginal
Protection Program Operations
     Physical Security                                                Marginal          Marginal         Marginal
     Security Systems                                              Unsatisfactory     Unsatisfactory     Marginal
     Protective Force                                              Unsatisfactory     Unsatisfactory     Marginal
     Security Badges, Credentials and Shields                       Satisfactory       Satisfactory     Satisfactory
     Transportation Security                                        Satisfactory       Satisfactory     Satisfactory
                                                OVERALL RATING     Unsatisfactory     Unsatisfactory     Marginal
Information Security
   Classified Guidance                                               Satisfactory      Satisfactory     Satisfactory
     Classified Matter Protection and Control                       Satisfactory        Marginal         Marginal
     Special Access Programs and Intelligence Information           Satisfactory       Satisfactory     Satisfactory
     Classified Automated Information Systems Security              Satisfactory       Satisfactory     Satisfactory
     Technical Surveillance Countermeasures                          Satisfactory      Satisfactory     Satisfactory
     Operations Security                                             Satisfactory      Satisfactory     Satisfactory
     Unclassified AISS (Optional)                                   Unsatisfactory    Unsatisfactory   Unsatisfactory
     Protected Distribution System (Optional)                        Satisfactory      Satisfactory     Satisfactory
     Communications Security (COMSEC) (Optional                      Satisfactory      Satisfactory     Satisfactory
                                           OVERALL RATING             Marginal          Marginal         Marginal
Nuclear Materials Control and Accountability
     Basic Requirements                                              Marginal         Unsatisfactory    Marginal
     Material Accounting                                            Unsatisfactory    Unsatisfactory   Unsatisfactory
     Material Control                                            Unsatisfactory       Unsatisfactory     Marginal
                                                  OVERALL RATING Unsatisfactory       Unsatisfactory     Marginal
Personnel Security
   Access Authorization (Personnel Clearance)                        Satisfactory      Satisfactory     Satisfactory
     Security Education Briefings and Awareness                      Satisfactory      Satisfactory     Satisfactory
     Control of Visits                                               Satisfactory      Satisfactory     Satisfactory
     Unclassified visits and Assign by Foreign Nationals            Satisfactory        Marginal       Satisfactory
     Personnel Assurance Program                                    Satisfactory       Satisfactory    Satisfactory
     Personnel Security Assurance Program                           Satisfactory       Satisfactory    Satisfactory
                                                OVERALL RATING       Satisfactory      Satisfactory     Satisfactory
                         1998 Composite Rating                     Unsatisfactory     Unsatisfactory     Marginal
Items in Bold indicate changes in ratings.




11
     There is no documentation for the 1999 Security Survey that provides a similar Team Leader rating breakdown.


Page 12
Appendix D
                                          1999 Security Survey Rating Changes
Program Areas:                                                   Murder board      Final Report
Program Management
  Program Management and Administration                             Satisfactory   Satisfactory
  Program Planning                                                  Satisfactory   Satisfactory
  Personnel Development and Training                                Satisfactory   Satisfactory
   Facility Approval and Registration of Activities                  Marginal       Marginal
   Foreign Ownership, Control, or Influence                         Satisfactory   Satisfactory
   Safeguards and Security Plans                                    Satisfactory   Satisfactory
   Surveys and Self Assessment                                      Satisfactory   Satisfactory
   Resolution of Findings                                           Satisfactory   Satisfactory
   Incident Reporting and Management                                Satisfactory   Satisfactory
                                                OVERALL RATING      Satisfactory   Satisfactory
Protection Program Operations
   Physical Security                                                Satisfactory   Satisfactory
   Security Systems                                                 Satisfactory   Satisfactory
  Protective Force                                                  Satisfactory   Satisfactory
  Security Badges, Credentials and Shields                          Satisfactory   Satisfactory
  Transportation Security                                           Satisfactory   Satisfactory
                                                OVERALL RATING      Satisfactory   Satisfactory
Information Security
   Classified Guidance                                              Satisfactory   Satisfactory
  Classified Matter Protection and Control                          Satisfactory    Marginal
  Special Access Programs and Intelligence Information              Satisfactory   Satisfactory
  Classified Automated Information Systems Security                 Satisfactory   Satisfactory
   Technical Surveillance Countermeasures                           Satisfactory   Satisfactory
   Operations Security                                              Satisfactory   Satisfactory
   Unclassified AISS (Optional)                                     Satisfactory   Satisfactory
  Protected Distribution System (Optional)                          Satisfactory   Satisfactory
  Communications Security (COMSEC) (Optional)                       Satisfactory   Satisfactory
                                               OVERALL RATING       Satisfactory    Marginal
Nuclear Materials Control and Accountability
  Basic Requirements                                                Satisfactory   Satisfactory
   Material Accounting                                               Marginal       Marginal
   Material Control                                                 Satisfactory   Satisfactory
                                                OVERALL RATING      Satisfactory   Satisfactory
Personnel Security
   Access Authorization (Personnel Clearance)                       Satisfactory   Satisfactory
  Security Education Briefings and Awareness                        Satisfactory    Marginal
  Control of Visits                                                 Satisfactory   Satisfactory
  Unclassified Visits and Assignments by Foreign Nationals          Satisfactory   Satisfactory
  Personnel Assurance Program                                       Satisfactory   Satisfactory
   Personnel Security Assurance Program                             Satisfactory   Satisfactory
                                                OVERALL RATING      Satisfactory   Satisfactory
                      1999 Composite Rating                         Satisfactory    Marginal
Items in Bold indicate changes in ratings.




Page 13
                                                                    IG Report No. DOE/IG-0471

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we nay
   any questions about your comments.


Name ______________________________ Date

Telephone ___________________________ Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
